%

cj O
No.
Supreme Court, U.S.
FILED

SEP 2 h 2020
... office of the clerk

IN THE
SUPREME COURT OF THE UNITED STATES

ROY USSERY

— PETITIONER

(Your Name)
vs.
Richard Hightower, et. al.,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Court of Appeals-First District of Texas

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Roy Ussery

(Your Name)
9601 Spur 591

(Address)
• Amarillo

Texas 79107

(City, State, Zip Code)

RECEIVED

M/A

(Phone Number)
Page i

SEP 3 fl 2020
•FFICE OF THE C4.ERK
SUPREME COURT. U.S.

QUESTION(S) PRESENTED
1) When giving weight to the prejudice factor in a 'Barker' test & the com­
plained of prejudice is the death of a DEFENSIVE witness, but the Court
erroneously considers the witness to be a witness for the State (yet by
the State's own admission and by the record it is shown the witness WAS
a witness for the defense) was a fair ruling reached based on the factors
of Barker vs. Wingo when the most important fact to be considered (if the
deceased was a witness for the defense or prosecution) concerning the pre­
judice factor was actually contrary to the facts presented in the case?
2) Where Appellate Counsel is shown to be ineffective and likely the cause
of the Court to consider the deceased as a witness for the State (because
she proffered as fact, in error, that the witness was a witness for the
State) and the record shows this to be in error, should a COA be granted
Appellant so that ha may FAIRLY litigate this issue by way of a new Direct
Appeal if the Court does not wish to re-perform the Barker test?
3) Should the Stfite be given AMY favorable consideration in the prejudice
factor because they chose to abandon extraneous offense evidence related
to this deceased witness when the State did not express its intent to use
the extraneous offense evidence until AFTER THE DEATH [IF THE WITNESS and
more than 3 years after charging appellant wit-ht the instant offense AMD
when apHalxoi.u ^rcsEri 1.3d tha Wxi.ness and notarized statement ccnecrnitig.
her potential testimony prior tc even being formally charged?
4) Where the record will show that the absence of the deceased witness direct**ly affected appellant's sb l.ity to testify, is definitive prejudice shown
which would affect the prejudice factor in a Barker test?
5) Where Grand Durv Packet originally submitted by 1st Defense Counsel Doe
Ray Rodriguez contained a defensive theory which shows the deceased wit­
nesses testimony was necessary to present this theory, is prejudice not
shown on the death of that witness and the inability of appellant to pre­
sent a defensive theory?
6) Where the assertion of one's right to a speedy trial is at issue end Appn 1 1

f 1 1 nW

i w

i

1

aw

ul vJ

ww

<i<u

4* I mum

^ m Y*

i i<J

i uw

wuu

m mm mrl W

w y

4* m * m 1

Lx J.UX )

u

O

>

uix i> w

^ 4*U mUm m m
m m -m m i i m
I I UUIm U O UuX puu

U I

concerning speedy trial, cne writ of mandamus seeking a higher ccurt tc
T nmmn
I

wx wu

+Km
WI I w

1 ni.inT*
Xuuiwx

uu ux

L

41 n

ww

nl

uX

J

mnrl
ui

m ri \ (o

^1

uw v wx UX

I m4* + mmm
X U V

X U

4n

uU

4nn

VI 1C

Hi trlflD

uJUUL^W

mflPPruUI lUbi

ning soeedy trial; but the weight given this factor by the Court in its
review is downplayed considerably due to the failure of TRIAL-COUNSEL to
assert the claim, would this finding be contrary to the Federal Court's
determination of one's assertion of this right? considering appellant
himself asserted this right time end sgein? end is this contrary tc the
m — m mmmI i

ui u^ui i v

m T

i_< i

O m m1/ m m H

uox i\bx ;

7) Where previous question(s) stand to reason that the prejudice factor or
any other factor of the Barker test ^should be re-considered in this case,
and no one factor of the Barker test should be considered singularly nor
be given the weight of the test all its own without due consideration of
the other factors because the weight in one factor can affect any of the
other three.would it not be necessary for the Court to perform the Barker
test all over again anew?

Page ii

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
lx >3 All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Justice Richard Hightower, Court of Apoeals-First District of Texas
Justice Kelly. Court of Apoeals-First District of Texas
Justice Countiss , Court of Apoeals-First District of Texas

RELATED CASES
The State of Texas vs. Roy IJsser.y. 338th District Court Harris County, TX
Case No. 1459846
Judgement entered June 15. 201B
Roy Eugene Usery vs. The State of Texas, In the Court of Appeals for the
First District of Texas.
Judgement entered November 26, 2019
Case No. 01-18-00540-CR

Page iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

. f-

6

CONCLUSION
Proof of Service

7

INDEX TO APPENDICES
APPENDIX A

Judgement & Opinion of Court of Appeals-First District of Texas

Kg. 01 -1 u-uu540-Cr! Roy Eugene Llesery v. The State of Texas
APPENDIX B

Order of Court of Criminal Aopeals of Texas refusing Appellant's
Petition For Discretionary Review PD-0011-20

APPENDIX C Order denying Appellant's Motion For Rehearing En Banc 4-7-2020

APPENDIX D Order denying Appellant's TIMELY filed motion for Extension of
Time to file a Motion For Rehearing

APPENDIX E

Judgement of Conviction 33Bth District Court Harris County, TX
Case No, 1459B46 (missing judgement on Special Issue)

APPENDIX F

Appellant's Original Motion For Leave to File Motion For Extension of time to file a Petition For Writ of .Certiorari. Motion T n Proceed
in Forma Pauperis, and Original Motion For Extension of Time To File Pet­

ition For Urit of Certiorari

Page iv

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Barker vs. Dingo.

...ii,5,6

STATUTES AND RULES
Tex. Const. Art 1 Sec

1D

Tex. Code of'Crim. Proc. Ann. Art. 1 .05

. . .ii,5.6
...ii,5,6

OTHER
All progeny of Barker vs. Dingo

• • • ii45,6

Page v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
xkx] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
__ to the petition and is
[ ] reported at
5 or,
[\i has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Court of Aopeals-First District of Texas
appears at Appendix__ a__ to the petition and is
[ ] reported at
; or,
kxk has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

m For cases from state courts:
The date on which the highest state court decided my case was
B
A copy of that decision appears at Appendix

□3-25-2020

m A timely petition for rehearing was thereafter denied on the following date:
4-07-2020 / 6-24-2020___ and a copy of the order denying rehearing
appears at Appendix .C/Wreference included statements) '
[XpAn extension of time to file the petition for a writ of certiorari was granted
“ ' ' 2-2020???
~
to and including 09-20-2020
(date) on 06-1
(date) in
not assigned(applicant unsure)
Application No.__ A
Please reference letter nleadi.ng with Court for filing delavs due to
the covid pandemic and related issues at unit of confinement

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Page 2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.3. Const. Amendment 6
Tax. Const. Art. 1 ll0
Tex. Code of Crim, Proc, Ann, Art. 1 ;05

Page 3

STATEMENT OF THE CASE
Appellant plead not guilty to Super Aggravated Sexual Assault of a Child
Under 6 years of Age, maintaining his innocence throughout the trial.
Immediately after being charged and prior to indictment Appellant employed
Doe Ray Rodriguez, attorney, mho obtained a written, notarized statement from
a witness who was the alleged victim (whom recanted) in a prior adjudication
of the appellant as a juvenile. The statement and a defensive theory proffered
by original counseln(intended for the grand jury) described how this witness'
testimony was necessary to rebuff the dceusation 'in"the instant case, and the
statement highlighted how that particular witness' testimony would allow the
then defendant to testify with impunity. However, it would be 3-1/2yrs before
the defendant was brought to trial. The witness in auestion died less than 4
months prior to trial. It was not until after the death of the witness that
the State (by own admission) 1st implored the Court to go to trial,immediately^
and subsequently the State for the first time filed a notice of intent to use
extraneous offense evidence regarding this witness when it had never expressed
this intent in any of the 3 yrs plus prior.
Mr. Rodriguex left Appellant's Emoloyment pre-indictment (but not before sub­
mitting grand jury packetto State—which packet never saw grand jury), and Mr.
Cornelius was appointed and HE had to obtain the grand jury packet from the
State, Confusion was created because of this because it would be easy to assume
the State provided the deceased witness' statemtent to the defense., but this
is incorrect. Mr. Cornelius filed a motion to dismiss for denial of speedy trl
on the grounds

of prejudice caused by the death of the witness and undue de­

lay caused by the State. The trial court found in favor of the defendant in
the first three Barker factors but found in favor of the State in the prejud­
ice factor. The Court of Appeals differed slightly in the first three factors
of Barker and also found no prejudice, but in its conclusions it expressed
that it considered the-witness to be a witness for the State, and that single
conclusion, drawn in error, was contrary to State's own admissions at trial
and the record otherwise. It should be noted that the defendant himself always
maintained a desire to go to trial immediately and he asserted his right-by
submitting multiple pro se filings on the basis of speedy trial but the Court
of Appeals neglected to consider these filings as the assertion of this right
because trial counsel failed to assert the riqht prior to filing the mentioned
motion to dismiss for denial of speedy trial.
Page 4

REASONS FOR GRANTING THE PETITION

1) The death of a witness cannot be remedied and where tn e testimony of
a deceased witness could impact the verdict of a jury trial, support a defens­
ive theory, and definitively impact a defendant's decision to testify or not.
to testify based on the availability of the witness, then absolute prejudice
can be shown;
?.) Uhere prejudice exists and there is undue delay in bringing a defend­
ant to trial and the complained of prejudice is caused by that delay, then a
persons right to a speedy trial has been threatened and denial can be eatablished if;
3) Delay was not caused by the defendant and any length in the delay can
be attributed to the State wherein which time a trial could have taken place:
and k) So long as the defendnat asserted his right to a speedy trial and expressed desire to go to trial prior to and until the complained of prejudice
occurred.
All of the above pre-reguisites are met in the instant case which is why
the decision reached in the opinion of the First District Court of Appeals is
contrary to Federal Law and the progeny of Barker.
The deceased witness provided a statement of recantation of a juvenile adj­
udication, a recantation that had also been made years before to family (supp­
orted by State's Brady disclosures). The testimony of this witness would have
been important for Appellant in that he could testify with impunity regarding
the juvenile accusation if in the event the.State chose to guestion him about
it. The real value in the witness' testimony though was that the defense wanted
to out th'ecissue in front of a jury to begin with to show and prove its theory
that the complainant and mother in the instant case were accusing the defend­
ant because of this existing Drior adjudication which the mother knew about,
and not actually because the accusation was committed by the defendant. Without
the witness being available

the defense was unable to propose that he was be­

ing accused because he was previously labeled a sex offender BUT that also the
compainant in that case had not only recanted, but was also there to testify
on behalf of the defendant. At the motion to dismiss hearing, the State argued
there would be no prejudice to the defense because it would withdraw its intert}~
to use extraneous offense evidence—but the State never offered notice of inteftj'
to use that evidence until after the witness had already died and it is incom­
prehensible how retracting that was not made known until after death (prejudice^
had already occurred and somehow still help the state achieve its burden of ;■
proving no prejudice to the defense,

It seems that notice of intent was more

intended as a tool for the purpose of showing no prejudice because the State
had 3-1/2yrs to give this notice, but chose to wait until'the death of the wit''ness to proffer it. Yet still reguired that the defendant acknowledge the con­
viction if he were to get on the stand to testify.
Page 5

If anything, that shows bad faith intent. Furthermore, when a defendant consis*tently asks for a speedy trial with 13 motions, 2 habeas writs, 1 writ of man­
damus, and several letters to the Judge and his own attorney, but weight in this
factor is somehow diminished due to the failure of his attorney to himself ass*
ert the right is contrary to Barker and ensuing progeny on the issue of the ass­
ertion of one's right. It is the DEFENDANT who asserts this rigtifeither by and
through his attorney or of his own accord. The right is not that of counsel and
therefore cannot be forfieted by his inaction when actions ARE taken by defendant. The greater public is not being protected under these fundamental rights
guaranteed by the constitution when the findings of reviewing courts are so
contrary to the rights themselves and in the context for which the protections
were precisely intended. Appellant asserted his right. t.n q speedy trie! , thp
length nf the delay was excessive and the delay was UHOLY on the part of the
State and Court, and the delay resulted in prejudice to the defendant upon the
death and accompanying unavailability of this witness.

CONCLUSION

A proper Barker test should be performed to determine if the appellant's
right to a speedy trial was denied. If it is found the fault of appellate coun­
sel for the facts the court considered in error then a COA should be granted.
For these reasons and any reasons the Court deem? neressqry,

The petition for a writ of certiorari should be granted.

Respect]

Date:

submitted,

9-/f'202d

Page 6

